No.

IN THE SUPREME COURT OF THE UNITED STATES
DAVID GARCIA,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to 18 U.S.C. ยง3006A(e)(7) and Rule 39 of this Court, Petitioner requests
leave to file the attached Petition for a Writ of Certiorari to the United States Court of
Appeals for the Sixth Circuit without prepayment of fees or costs and to proceed in forma
pauperis.
Petitioner was represented by counsel appointed pursuant to 18 U.S.C. ยง3006A in
the Sixth Circuit Court of Appeals.
Respectfully submitted,

Date: December 31, 2020

s/Dennis C. Belli
DENNIS C. BELLI
536 South High St. Fl. 2
Columbus, Ohio 43215-5785
Phone:(614) 300-2911
Fax: (888) 901-8040
Email:
bellilawoffice@yahoo.com
ATTORNEY FOR PETITIONER

